                                OFPJC: F, or: lJ>XSPECT()R           C~:El"n~,RAL
                                        ~;(;!::'5'hiJl~t('n"   I)C 20240




Memorandum
                                                                                    lilY 1 6 2008
To:             Secretary

From:           Earl E. Devaney     (J .n
                                     ('
                Inspector General   ~
Subject:        Independent Auditors' Report on the Department of the In i
                Special-Purpose Financial Statements for Fiscal Years 2008 and 2007
                (Report No. X-IN-MOA-0001-2009)

INTRODUCTION

        This memorandum transmits the KPMG LLP (KPMG) auditors' report of the Department
of the Interior (001) special-purpose financial statements for fiscal years 2008 and 2007. Office
of Management and Budget (OMB) Bulletin No. 07-04, "Audit Requirements for Federal
Financial Statements" requires the 001 Office-of Inspector General (01 G) or an independent
auditor, as determined by the OIG, to audit the 001 special-purpose financial statements.

        Under a contract issued by 001 and monitored by the OIG, KPMG, an independent
public accounting firm, performed an audit of the 001 fiscal years 2008 and 2007 speciale
purpose financial statements. The contract required that the audit to be performed in accordance
with the "Government Auditing Standards" issued by the Comptroller General of the United
States and OMB Bulletin No. 07-04.

RESULTS OF AUDIT

        KPMG issued an unqualified opinion on the special-purpose financial statements and
identified no significant deficiencies in internal controls over financial reporting for the special-
purpose financial statements.

        KPMG is responsible for the attached auditors' report and for the conclusions expressed
in the report. We do not express an opinion on 001 special-purpose financial statements,
conclusions on the effectiveness of internal controls over the financial reporting process for the
special-purpose financial statements, or conclusions on compliance with the Department of the
Treasury's Treasury Financial Manual Chapter 4700.




                                                         1
REPORT DISTRIBUTION

        The legislation, as amended, creating the OIG requires semiannual reporting to the
Congress on all audit reports issued, actions taken to implement audit recommendations, and
unimplemented recommendations. Therefore, we will include the information in the attachment
in our next semiannual report. The distribution of the report is not restricted, and copies are
available for public inspection.

       We appreciate the cooperation and assistance of DOl personnel during the audit. If you
have any questions regarding the report, please contact me at 202-208-5745.

Attachment

cc:    Chief Financial Officer
       Chief Information Officer
       Director, Office of Financial Management
       Associate Director, Office of Financial Management
       Focus Group Leader, Internal Control and Audit Follow-up, Office of Financial
              Management
       Audit Liaison Officer, Office of Financial Management




                                                                                       !
                               KPMG LLP
                               2001 M Street. tNV
                               Washington, DC 20036




                                           Independenf Auditors' Report


Secretary and Inspector General,
U.S. Department of the Interior:

We have audited the accompanying Closing Package Financial Statement Report - Balance Sheet of the
U.S. Department of the Interior (Interior) as of September 30,2008 and 2007; the related Closing Package
Financial Statement Report - Statement of Net Cost and Statement of Changes in Net Position, and the
accompanying Financial Report (FR) Notes Report for the years then ended; the accompanying Additional
Note No. 27; the accompanying Other Data Report Nos. I, 16, and 17; the accompanying Trading Partner
Summary Note Report - Balance Sheet as of September 30, 2008 and 2007; and the related Trading
Partner Summary Note Report - Statement of Net Cost and Statement of Changes in Net Position for the
years then ended (hereinafter collectively referred to as the special-purpose fInancial statements), except
for the information included in the following sections:

    a. "Threshold" in FR Notes Report;
    b. "Other Notes Info - Section C - Claim Amount (Unable to Determine Loss)," "Other Notes Info-
       Section D - Claim Amount (Unable to Determine Loss)," and "Text Data Line No.5" in FR Notes
       Report No. 18;
    c. " Other Text Data - Section A - Line No.2" in Other Data Report Nos. 16 and 17; and
    d. "Other Data Info - Section A - Collection Type Heritage Assets" for fIscal year 2007 and "Other
       Data Info - Section B - Non-Collection Type Heritage Assets" for fIscal year 2007 in Other Data
       Report No. 17.

These special-purpose fmancial statements are the responsibility of interior' s management. Our
responsibility is to express an opinion on these special-purpose fInancial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to fInancial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and OffIce of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about whether the
special-purpose fInancial statements are free of material misstatement. An audit includes consideration of
internal control over fInancial reporting as a basis for designing audit procedures tbat are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of Interior's internal
control over fInancial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the special-purpose
fInancial statements and assessing the accounting principles used and signifIcant estimates made by
management, as well as evaluating the overall special-purpose fmancial statement presentation. We believe
that our audits provide a reasonable basis for our opinion.

The accompanying special-purpose fInancial statements have been prepared for the purpose of complying
with the requirements of Volume 1, Part 2, Chapter 4700 of the. U.S. Department of the Treasury' s
Treasury Financial Manual (TFM), as described in Additional Note No. 27, solely for the purpose of




                               KPMG LLP. , U S InTlned I!ability partnership. is the U.S.
                               member lifTTl of KPMG International, a Swiss cooperatMt.
providing financial information to the U.S. Department of the Treasury and the U.S. Government
Accountability Office (GAO) to use in preparing and aUditing the Financial Report of the U.S.
Government, and are not intended to be a complete presentation ofInterior's financial statements.

In accordance with TFM Volume I, Part 2, Chapter 4700, Interior prepared FR Notes Report Nos.
through 26, except for FR Notes Report Nos. lOA, 16, 23, and 24, which were not applicable to Interior.
Interior included Additional Note No. 27, to disclose other data not contained in the special-purpose
financial statements, but which is necessary to make the special-purpose financial statements more
informative.

In our opinion, the special-purpose financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of the Interior as of September 30,2008 and 2007,
and its net costs and changes in net position for the years then ended in conformity with U.S. generally
accepted accounting principles and the presentation pursuant to the requirements of TFM Volume 1, Part 2,
Chapter 4700, as described in Additional Note No. 27.

As discussed in Additional Note No. 27, Interior changed its method of accounting for and reporting of
heritage assets and stewardship land to adopt changes in accounting standards in fiscal year 2008.

Interior also prepared Other Data Report Nos. I through 17, except for Other Data Report Nos. 3 through 8
and II through 14, which were not applicable to Interior. The information included in the following is
presented for the purpose of additional analysis and is not a required part of the special-purpose financial
statements, but is supplementary information required by U.S. generally accepted accounting principles
and the TFM Volume 1, Part 2, Chapter 4700:

    a. "Other Data Info. - Sections A and B" and "Other Text Data - Section A - Line No.5 " in Other
       Data Report No.2;
    b. Other Data Report Nos. 9,10, and IS;
    c. "Other Text Data - Section A - Line No.2" in Other Data Report Nos. 16 and 17; and,
    d. "Other Data Info - Section A - Collection Type Heritage Assets" for fiscal year 2007 and "Other
       Data Info - Section B - Non-Collection Type Heritage Assets" for fiscal year 2007 in Other Data
       Report No. 17.

We have applied certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of this information, except for the information in
the sections entitled "Threshold," discussed in the paragraph below. However, we did not audit this
supplementary information, and accordingly, we express no opinion on it.

The information included in the following is presented for purposes of additional analysis and is not a
required part of the special-purpose financial statements:

    a. "Threshold" in FR Notes Report;
    b. "Threshold" in Other Data Report;
    c. "Other Notes Info - Section C - Claim Amount (Unable to Determine Loss)," "Other Notes Info-
       Section D - Claim Amount (Unable to Determine Loss)," and "Text Data Line No.5" in FR Notes
       Report No. 18;
    d. "Other Text Data - Section A - Line Nos. I through 4" in the Other Data Report No.2;
    e. Closing Package Line Reclassification Summary Report - Balance Sheet;
    f. Closing Package Line Reclassification Summary Report - Statement ofNe! Cost;
    g. Closing Package Line Reclassification Summary Report - Statement of Changes in Net Position;
       and
    h. Closing Package Line Reclassification Summary Report - Custodial Activity.

                                                Page 2 of 4
This information has not been subjected to the auditing procedures applied in the audits of the special-
purpose financial statements and, accordingly, we express no opinion on it.

The rFM Volume 1, Part 2, Chapter 4700 requires agencies to use the Governmentwide Financial
Reporting System to input certain data as described in Additional Note No. 27. Except as discussed in this
report, we express no opinion on information maintained in that system.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, we have also issued a
combined auditors' report dated November IS, 2008 which presents our opinion on Interior's financial
statements; our consideration of Interior's internal controls over financial reporting; and the results of our
tests of its compliance with certain provisions of laws, regulations, contracts, and grant agreements and
other matters that are required to be reported under Government Auditing Standards. That report is an
integral part of the audits of the balance sheet of Interior as of September 30, 2008 and 2007, and the
related statements of net cost, changes in net position, budgetary resources, and custodial activity, for the
years then ended (collectively referred to as financial statements), performed in accordance with
Government Auditing Standards and OMB Bulletin No. 07-04, and should be read in conjunction with this
report in considering the results of our audits of the special-purpose financial statements. Our audit of the
financial statements of Interior as of and for the year ended September 30, 2008, disclosed the following
material weakness, significant deficiencies, and compliance and other matters:

Significant Deficiency Considered to be a Material Weakness
    A. Controls over Unfilled Customer Orders

Other Significant Deficiencies
   B. General and Application Controls over Financial Management Systems
   C. Controls over Property
   D. Controls over Undelivered Orders
   E. Grant Monitoring Controls
   F. Controls over Indian Trust Funds

Compliance and Other Matters
   G. Single Audit Act Amendments of 1996
   H. Federal Financial Management Improvement Act of 1996

Management is responsible for establishing and maintaining effective internal control. In planning and
performing our audit of the fiscal year 2008 special-purpose financial statements, we also considered
Interior' s internal control over financial reporting as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the special-purpose financial statements, but not for the purpose of
expressing an opinion on the effectiveness of Interior's internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of Interior's internal control over financial
reporting.

Our consideration of internal control over financial reporting for special-purpose financial statements was
for the limited purpose described in the preceding paragraph of this section and would not necessarily
identifY all deficiencies in the internal control over financial reporting for special-purpose financial
statements that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects Interior's ability to initiate, authorize, record, process, or report financial data reliably

                                                    Page 3 of 4
in accordance with U.S. generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of Interior's special-purpose financial statements that is more than
inconsequential will not be prevented or detected by Interior's internal control. A material weakness is a
significant deficiency, or combination of significant deficiencies, that results in more than a remote
likelihood that a material misstatement of the special-purpose financial statements will not be prevented or
detected by Interior' s internal control.

In our fiscal year 2008 audit, we did not identifY any deficiencies in internal control over financial
reporting for the special-purpose financial statements that we consider to be material weaknesses as
defined above.

Management is responsible for complying with laws, regulations (including TFM Volume I. Part 2,
Chapter 4700), contracts and grant agreements applicable to Interior. As part of obtaining reasonable
assurance about whether Interior' s fiscal year 2008 special-purpose financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, contracts,
and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance with those
provisions or on compliance with TFM Volume 1, Part 2, Chapter 4700 requirements was not an objective
of our fiscal year 2008 audit of the special-purpose financial statements and, accordingly, we do not
express such an opinion.

The results of our tests of compliance with TFM Volume 1, Part 2, Chapter 4700 disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing Standards or
OMB Bulletin No. 07-04.




This report is intended solely for the information and use of Interior's management, Interior's Office of
Inspector General, U.S. Department of Treasury, OMB, and GAO, in connection with the pre'paration and
audit of the Financial Report oj the us. Government, and is not intended to be and should not be used by
anyone other than these specified parties.




November 16, 2008




                                                 Page 4 of4
